Office of the Inspector General     Audit Report
                                  To the Vice President and
                                  Controller




REVIEW OF CONTROLS OVER
DEPRECIATION EXPENSE
AND ACCUMULATED
DEPRECIATION




Senior Auditor                                   Audit 2005-023F
Thomas M. Blair                                    June 13, 2005
Memorandum from the Office of the Inspector General



June 13, 2005

Randy P. Trusley, WT 5C-K

REQUEST FOR MANAGEMENT DECISION – AUDIT 2005-023F – REVIEW OF CONTROLS
OVER DEPRECIATION EXPENSE AND ACCUMULATED DEPRECIATION



Attached is the subject final report for your review and management decision. You are
responsible for determining the necessary actions to take in response to our findings.
Please advise us of your management decision within 60 days of the date of this report.

Information contained in this report may be subject to public disclosure. Please advise us
of any sensitive information in this report that you recommend be withheld.

If you have any questions, please contact Mike Blair, Senior Auditor, at (865) 632-6056 or
Louise B. Beck, Manager, Financial and Operational Audits, at (865) 632-2622. We
appreciate the courtesy and cooperation received from your staff during this review.



Ben R. Wagner
Assistant Inspector General
 (Audits and Inspections)
ET 3C-K

TMB:JP
Attachment
cc (Attachment):
     Tom D. Kilgore, ET 12A-K
     Richard W. Moore, ET 4C-K
     Ellen Robinson, ET 12A-K
     OIG File No. 2005-023F
Office of the Inspector General                                 Audit Report


SYNOPSIS
We conducted an audit to assess Tennessee Valley Authority's (TVA)
controls for calculating and recording depreciation expense as
documented in the Accounting Policy and Procedures and Risk
Control Tracking System (RCTS). Our audit included the controls in
place as of February 28, 2005. During the first five months of fiscal
year 2005 (October 1, 2004–February 28, 2005), TVA recorded
depreciation expense in the amount of $445.1 million, resulting in a
balance in accumulated depreciation to date of $13.9 billion.

In summary, we determined the depreciation policy and procedures do
not accurately reflect (1) the control activities described in RCTS and
(2) the current management practice. Specifically, management's
review and approval of the following key control activities are not
documented:

•   Revised utilization rates encoded into the Oracle Asset (Oracle)
    system.
•   Employee review and sample testing of the monthly depreciation
    expense.
•   Reconciliation of the monthly expense to the general ledger.
•   Creation and posting of journal vouchers.


BACKGROUND
TVA's Fixed Assets group resides within the Chief Financial Officer's
organization and is responsible for the calculation and recording of the
depreciation expense. Depreciation is recorded monthly and is
calculated using the pooling method where similar types of assets are
aggregated and an asset utilization rate is applied to the group. The
utilization rate is based upon the estimated useful life of the asset type
comprising the group.

Fixed Assets reviews the reasonableness of the utilization rate(s) at
least annually. If a rate adjustment is indicated, the proposed
adjustment is submitted to the senior manager of Accounting and
Performance Reporting for review and approval. The approved rate
adjustment is encoded into Oracle by an accountant in the Fixed
Assets group. An Asset Category report is generated and reviewed
by the accountant and the manager of Fixed Assets.


Audit 2005-023F                                                      Page 1
Office of the Inspector General                               Audit Report


During the month, completed projects are removed from Construction
Work In Progress and added to the appropriate Completed Plant asset
classification. In addition, any asset retirements are removed from the
Completed Plant asset base. Oracle then generates the monthly
depreciation expense amounts based upon the asset base and the
rate assigned to the asset classification. Using the amounts
generated by Oracle, Fixed Assets generates journal vouchers which
are posted into TVA's general ledger system, Integrated Business
System (IBS).

An accountant in Fixed Assets verifies the monthly recording of
depreciation by manually recalculating depreciation expense on a
sample of asset types.


OBJECTIVE, SCOPE, AND METHODOLOGY
The objective of our audit was to assess the controls for calculating
and recording depreciation expense as documented in the Accounting
Policy and Procedures and RCTS. Our audit addressed the
depreciation controls included in the RCTS as of February 28, 2005.
To complete our audit, we obtained an understanding of the financial
reporting controls and processes relating to depreciation by:

•   Accessing RCTS to obtain all the related information/
    documentation for the depreciation subprocess including the
    Depreciation Accounting Policy and Procedure.
•   Interviewing Fixed Assets personnel and other controller personnel
    to gain an understanding of the subprocess and obtain additional
    control documentation.
•   Documenting in narrative and flowcharts the subprocess using
    information obtained.
•   Conducting a walkthrough of the subprocess with Fixed Assets to
    (1) confirm our understanding of the process and key control
    activities, (2) identify areas where subprocess and/or control
    documentation needs to be prepared or revised, (3) determine if
    documentation agrees with actual practices, and (4) identify any
    additional key control activities necessary to achieve the control
    objective.
•   Assessing the control design and documentation.




Audit 2005-023F                                                    Page 2
Office of the Inspector General                             Audit Report


This audit was performed in accordance with generally accepted
government auditing standards. Although we did not test for
compliance with laws and regulations, nothing came to our attention
during the audit that indicated noncompliance with laws and
regulations.


FINDINGS AND RECOMMENDATIONS
The appendix summarizes the results of our review and related
recommendations.




Audit 2005-023F                                                  Page 3
Risk: Unauthorized charges are transacted resulting in incorrect depreciation expense and accumulated
depreciation.
Control Objective: All depreciation expenses are accurately calculated and recorded.
No.         Control Activities                                     Findings                                      Recommendation
 1.   Depreciation rates and methods     Rates are reviewed on an annual basis. However, operating         Manager of Fixed Assets
      of calculation are reviewed        organizations can request a rate review at any point during       should document indication of
      periodically to ensure that they   the year. Changes of the rates are approved by the senior         the review and approval at the
      are reasonable and in              manager of Accounting and Performance Reporting. Fixed            completion of the encoding of
      accordance with generally          Assets personnel enter new rates into Oracle Asset (Oracle).      the revised rates.
      accepted accounting principles     An Asset Category report is then generated listing all current
                                                                                                           Review and approval process
      and/or regulatory requirements.    rates, and the report is reviewed by Fixed Assets
                                                                                                           should be documented in the
                                         management. No documentation of review approval is noted
                                                                                                           Depreciation policy.
                                         on the report after input of rates, and the approval process is
                                         not addressed in the Depreciation policy.
 2.   Depreciation exception items       Fixed Assets personnel review the monthly projected work                      None
      (in terms of expectations          order closings to determine which projects should have been
      established by management)         closed by the end of the month and the related asset(s) to be
      are consistently identified,       retired. In some cases, communication with the operating
      monitored, and promptly            organization is required to determine if the work order should
      corrected.                         (should not) be closed.
 3.   Depreciation calculations are      Utilization rates are entered into Oracle. The monthly                        None
      performed electronically using     depreciation expense is calculated in Oracle Script based
      approved depreciation rates.       upon information retrieved from Oracle (Asset Base and
                                         utilization rate).
 4.   Depreciation is independently      On a monthly basis, Fixed Assets personnel review the total       Manager of Fixed Assets
      recalculated annually on a         depreciation expense calculation and on sample basis              should document indication of
      sample basis.                      recalculate the expenses by utilization rate.                     the review and approval of the
                                                                                                           recalculation of the
                                         No indication of management oversight is noted on the
                                                                                                           depreciation expense.
                                         documentation, and the approval process is not addressed in
                                         the Depreciation policy.                                          Review and approval process
                                                                                                           should be documented in the




                                                                                                                                            Page 1 of 2
                                                                                                           Depreciation policy.




                                                                                                                                            APPENDIX
Risk: Unauthorized charges are transacted resulting in incorrect depreciation expense and accumulated
depreciation.
Control Objective: All depreciation expenses are accurately calculated and recorded.
No.         Control Activities                                   Findings                                     Recommendation
 5.   The balances in fixed asset and   The previous month's accumulated depreciation is rolled         Manager of Fixed Assets
      accumulated depreciation are      forward. Oracle calculates the current monthly depreciation     should document indication of
      rolled forward from one           expense which is added to the prior month's accumulated         the review and approval of the
      processing cycle to the next      depreciation balance. Monthly, the Fixed Assets personnel       reconciliation.
      and reconciled to the general     reconcile the depreciation expense to the general ledger. No
      ledger.                           indication of management oversight is noted on the              Review and approval process
                                        documentation, and the approval process is not addressed in     should be documented in the
                                        the Depreciation policy.                                        Depreciation policy.

 6.   Depreciation charges are          On a monthly basis, the manager of Fixed Assets reviews the     Manager of Fixed Assets
      reviewed by management            current month journal vouchers and IBS depreciation             should document indication of
      including consideration of the    expenses. The manager does not indicate any                     the review and approval of the
      recording of such charges in      review/approval signature on the documentation, and the         current month's journal
      the appropriate accounting        approval process is not addressed in the Depreciation policy.   vouchers and Integrated
      period.                                                                                           Business System (IBS)
                                                                                                        depreciation expenses.
                                                                                                        Review and approval process
                                                                                                        should be documented in the
                                                                                                        Depreciation policy.

 7.   Fixed Assets personnel ensure     Every asset has a date in service (DIS). The DIS is provided                None
      correcting adjustments are        by the operating organization. In some cases, the effective
      made to depreciation expense      DIS is in a previous period. Fixed Assets personnel enter the
      when the project is actually      DIS into Oracle. Oracle incorporates the asset into the asset
      recorded in the fixed asset       category base and calculates an adjusted depreciation
      database in a different           expense for the effective DIS.
      month/fiscal year than the
      project was placed in-service.




                                                                                                                                         Page 2 of 2
                                                                                                                                         APPENDIX
